<html>
<title> - DISASTER MITIGATION: REDUCING COSTS AND SAVING LIVES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






          DISASTER MITIGATION: REDUCING COSTS AND SAVING LIVES

=======================================================================

                                (113-64)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                   ______
	
                     U.S. GOVERNMENT PRINTING OFFICE 
	
87-433 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
 Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
   DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                         Washington, DC 20402-0001
        
        
        










        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ANDRE CARSON, Indiana
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD, Arkansas      Columbia
BLAKE FARENTHOLD, Texas, Vice Chair  MICHAEL H. MICHAUD, Maine
MARKWAYNE MULLIN, Oklahoma           TIMOTHY J. WALZ, Minnesota
MARK MEADOWS, North Carolina         DONNA F. EDWARDS, Maryland
SCOTT PERRY, Pennsylvania            RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)



















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

David Miller, Associate Administrator, Federal Insurance and 
  Mitigation Administration, Federal Emergency Management Agency.     4
Hon. Linda Langston, president, National Association of Counties, 
  and supervisor, Linn County, Iowa..............................     4
Bryan Koon, vice president, National Emergency Management 
  Association, and director, Florida Division of Emergency 
  Management.....................................................     4
Chad Berginnis, CFM, executive director, Association of State 
  Floodplain Managers............................................     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

David Miller.....................................................    34
Hon. Linda Langston..............................................    45
Bryan Koon.......................................................    55
Chad Berginnis, CFM..............................................    62

                       SUBMISSIONS FOR THE RECORD

Hon. Linda Langston, president, National Association of Counties, 
  and supervisor, Linn County, Iowa:

    Response to request for information from Hon. Mark Meadows, a 
      Representative in Congress from the State of North Carolina    21
    Answer to question for the record from Hon. Lou Barletta, a 
      Representative in Congress from the State of Pennsylvania..    53
Bryan Koon, vice president, National Emergency Management 
  Association, and director, Florida Division of Emergency 
  Management:

    Response to request for information from Hon. Mark Meadows, a 
      Representative in Congress from the State of North Carolina    22
    Answers to questions for the record from Hon. Lou Barletta, a 
      Representative in Congress from the State of Pennsylvania..    60

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
          DISASTER MITIGATION: REDUCING COSTS AND SAVING LIVES

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order. Today's 
hearing will focus on disaster mitigation and what communities 
across the Nation can do to protect their homes and families 
and reduce their costs, particularly as it relates to floods.
    So, why are we having this hearing today, and why focus on 
floods? Flooding is the number-one natural disaster in the 
United States, costing the taxpayer, States, local communities, 
and individual homeowners, and businesses billions of dollars 
every year.
    For example, in 2012 alone, the National Flood Insurance 
Program, NFIP, paid more than $7.7 billion in flood insurance 
claims. In 2012 and 2013 the Disaster Relief Fund spent nearly 
$800 million just on flood-only disasters, and spent more than 
$7 billion on disasters that involved heavy flooding from 
hurricanes and tropical storms. And the Federal costs are only 
a portion of the total costs, including the costs to 
communities, individual homeowners and businesses.
    Floods cost lives, property and communities. To give some 
perspective, in the past 5 years, all 50 States have 
experienced floods or flash floods. In 2013, out of the 62 
major disaster declarations across the Nation, more than 41 of 
them involved flooding.
    In Pennsylvania, floods are the most prevalent type of 
natural disaster. In 2011, Tropical Storm Lee hit Pennsylvania 
just a week and a half after Hurricane Irene, causing flooding 
that resulted in loss of life, homes destroyed, and an 
estimated $1 billion in damages in Pennsylvania alone.
    While the committee does not have jurisdiction over the 
insurance policies and premiums, there are real and practical 
steps communities and individuals can take to protect their 
homes and their families from floods, and at the same time 
reduce their costs and insurance premiums. And that is what we 
are focusing on today.
    Disaster mitigation has been proven to reduce the risks in 
disasters, including floods. At the Federal level, there are 
programs that can help States and communities mitigate against 
disasters. For example, the Hazard Mitigation Grant Program, 
the Pre-Disaster Mitigation program, as well as the Hazard 
Mitigation Assistance Program help offset the costs of 
mitigation across the Nation. That is why I am concerned the 
administration's proposed budget for fiscal year 2015 removes 
the Pre-Disaster Mitigation Program funding out of FEMA's base 
budget. Recently, I, along with Ranking Member Carson and other 
Members of Congress, wrote a letter to the appropriators making 
clear continued funding for this program is critical.
    Why do we invest in these programs, and why are they so 
important? Studies have shown that for every dollar we invest 
in mitigation, the taxpayer saves $3 to $4 in disaster 
assistance.
    But, in addition to these programs, communities can take 
practical steps to reduce their flood risk through programs 
like the Community Rating System or ``CRS.'' CRS specifically 
is designed to engage communities in mitigating against 
flooding. Communities that participate in the CRS program can 
see their insurance premiums reduced anywhere from 5 to 45 
percent, and at the same time actually reduce their risk from 
flooding, protecting their families and property from 
devastation.
    CRS works on a rating system based on the mitigation 
activities completed by participating communities. As 
communities take steps to improve their ratings, their costs 
decrease, including their insurance premiums. For example, in 
the program, communities are rated 9 to 1, 1 being the highest. 
With a rating of 9, a community can see a 5-percent reduction 
in their insurance rates under NFIP. A rating of 1 can result 
in a reduction of 45 percent. These are real and tangible 
savings to individual property owners.
    Today I hope to hear how these programs are being used and 
can be used by communities in Pennsylvania and across the 
Nation to help alleviate some of the burden and costs of 
disasters and insurance premiums.
    Mitigation is critical. It is critical to saving lives, 
critical to reducing overall costs of disasters, and critical 
to homeowners and businesses.
    After Hurricane Irene and Tropical Storm Lee, I remember 
standing in front of one family's home, which had river water 
flowing more than a foot deep on its second floor. Most of this 
family's possessions were piled onto the sidewalk. Some were 
still dripping wet. The mother looked at her children's toys, 
ruined by the flood. She pointed to one little toy and said to 
me, ``How can the Government put a price on that? My son played 
with that. Those are memories. How can you put a price on 
that?''
    She is right. We cannot put a price tag on memories. But we 
can mitigate against floods so that when the next big storm, 
the next big flood comes, these communities are as prepared as 
possible, so that their homes are built better, and families do 
not have to watch irreplaceable photographs and heirlooms get 
washed away.
    I look forward to hearing from our witnesses today, and I 
thank you all for being here.
    I now call on ranking member of the subcommittee, Mr. 
Carson, for a brief opening statement.
    Mr. Carson. Thank you, Mr. Chairman. And, good morning, 
welcome, to our witnesses. Chairman Barletta, thank you for 
working with me to schedule today's hearing on how disaster 
mitigation can save lives and reduce costs. I also want to 
acknowledge our ranking member emeritus, certainly an American 
icon, the honorable Congresswoman Eleanor Holmes Norton.
    Now, before we begin, I want to extend my thoughts and 
condolences to those who have lost loved ones in the mudslide 
in Oso, Washington. Now, while nothing we do here can end your 
grief, I want everyone to know that we stand ready to help 
however we can. And I think we should also recognize the rescue 
workers, including the National Guard and Urban Search and 
Rescue teams who have dutifully and admirably performed this 
difficult task, despite those terrible conditions.
    So, Mr. Chairman, if you don't object, very quickly I would 
like for us to take a quick moment of silence to recognize the 
losses in Washington.
    [A moment of silence was observed.]
    Mr. Carson. Thank you, Mr. Chairman. Today our Nation is at 
a critical junction. In recent years we have seen strong storms 
with greater frequency. This results in increased vulnerability 
for our citizens and property. For years we have seen areas 
damaged by disaster rebuilt, only to be damaged later again. 
There is no doubt that, across the country, our constituents 
will continue to face floods, tornadoes, hurricanes, and other 
disasters. Unless something is done now, this cycle of build, 
damage, and rebuild will continue. The result will be large 
bills for taxpayers that might have been avoided with proper 
preparation.
    Members of our committee know that we must support 
mitigation programs to break this cycle. This is why I also 
introduced H.R. 3282, to reauthorize the pre-disaster 
mitigation programs for 5 years at its last authorized level of 
$200 million. And we want to encourage our other colleagues to 
join us in supporting this critical bill.
    I also want to thank the 54 bipartisan Members who joined 
Chairman Barletta and me in sending a letter to the 
Appropriations Committee this week. We urged them to fund pre-
disaster mitigation programs sufficiently to actually implement 
mitigation programs.
    Independent studies have shown that mitigation saves 
taxpayers money. This year, the President's Budget requested 
approximately $7 billion for the Disaster Relief Fund, which 
will be used to assist with disaster response and recovery. The 
more we invest in pre-disaster mitigation, the less will be 
needed in the future for disaster response and recovery. 
Because of the Sandy Relief Implementation Act, States now have 
up to 25 percent of their hazard mitigation grants available 
soon after a disaster. Now, I hope that this encourages 
communities to incorporate mitigation strategies into their 
rebuilding process.
    In this hearing it is very important for us to remember 
that a major part of mitigation is community buy-in. Community 
support and participation is absolutely critical to ensuring 
effective mitigation strategies are undertaken. One of the 
challenges we face is how to encourage those who will be 
affected the most to take the necessary steps to prepare for 
future disasters. This is a difficult choice, because it costs 
more money upfront than many case afford. And, finally, we are 
interested in learning more about any strategies that may be 
available to really educate developers, in particular, and 
others about the importance of safe building practices and 
other strategies.
    So, we welcome today's testimony as we consider this 
important topic. And thank you to the witnesses for your 
testimony.
    Mr. Barletta. Thank you, Ranking Member Carson. On our 
panel today we have Mr. David Miller, Associate Administrator 
for the Federal Insurance and Mitigation Administration, 
Federal Emergency Management Agency; the Honorable Linda 
Langston, president of the National Association of Counties, 
and supervisor of Linn County, Iowa; Mr. Bryan Koon, director 
of Florida Division of Emergency Management, testifying on 
behalf of the National Emergency Management Association; and 
Mr. Chad Berginnis, executive director, Association of State 
Floodplain Managers.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Since your 
written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Mr. Miller, you may proceed.

  TESTIMONY OF DAVID MILLER, ASSOCIATE ADMINISTRATOR, FEDERAL 
  INSURANCE AND MITIGATION ADMINISTRATION, FEDERAL EMERGENCY 
  MANAGEMENT AGENCY; HON. LINDA LANGSTON, PRESIDENT, NATIONAL 
  ASSOCIATION OF COUNTIES, AND SUPERVISOR, LINN COUNTY, IOWA; 
   BRYAN KOON, VICE PRESIDENT, NATIONAL EMERGENCY MANAGEMENT 
   ASSOCIATION, AND DIRECTOR, FLORIDA DIVISION OF EMERGENCY 
   MANAGEMENT; AND CHAD BERGINNIS, CFM, EXECUTIVE DIRECTOR, 
            ASSOCIATION OF STATE FLOODPLAIN MANAGERS

    Mr. Miller. Thank you, Mr. Chairman. Chairman Barletta, 
Ranking Member Carson, and members of the subcommittee, thank 
you for having us here today. I am David Miller, the Associate 
Administrator for the Federal Insurance and Mitigation 
Administration at the Department of Homeland Security's Federal 
Emergency Management Agency. I am here to discuss FEMA's 
mitigation programs and how we educate, incentive, and fund 
State, local, tribal, and territorial efforts to build stronger 
communities that, collectively, create a Nation more resilient 
to an increasing number and intensity of hazards.
    The benefits of effective mitigation are well established. 
Mitigation supports a more rapid recovery from disasters and 
lessens the financial impact of these events on the Nation. 
Mitigation saves money; one study by the Multihazard Mitigation 
Council cites a return of $4 for every dollar invested. 
Collectively, it has been estimated that mitigation programs 
annually save the American public $3.4 billion in losses 
avoided.
    Investments in mitigation also serve to buy down risk, 
meaning that making positive changes lowers the probability of 
risk, and makes communities safer and more resilient. Buying 
down risk is critically important, as a higher percentage of 
our population is living in vulnerable areas than ever before.
    FEMA has made significant strides in the last 3 years in 
the area of mitigation, bringing the larger mitigation 
community together around shared doctrine; partnering with 
governments at all levels; and giving communities the funding, 
tools, and information they need to make informed, data-driven 
decisions that minimize the risks they have identified. This 
work was bolstered in 2011 with the release of Presidential 
Policy Directive 8 on National Preparedness.
    This directive defined the mitigation mission area, and 
required the development of the National Mitigation Framework. 
In turn, the framework established the Mitigation Framework 
Leadership Group. The MitFLG, as we call it, is a senior-level 
group that works to coordinate national-level mitigation 
activities and implement policies in consultation with Federal 
agencies and State, local, tribal, and territorial governments.
    Among other important work, the MitFLG is currently 
developing a consistent Federal flood risk management standard 
for Federal funds in recovery that are being used for 
rebuilding, and that may be applied to future disasters.
    As the committee is aware, FEMA oversees and manages a 
number of grant programs to support mitigation efforts. You 
have already talked about the hazard mitigation grant program, 
pre-disaster mitigation grants, and the flood mitigation 
assistance programs. These programs have assisted governments 
in rebuilding and building stronger and more resilient 
communities.
    In Indiana, FEMA recently awarded more than $1.6 million in 
HMGP funding to acquire 33 homes, as well as to bolster warning 
systems and update mitigation plans for several communities. In 
Pennsylvania, FEMA recently approved more than $9 million on 
HMGP funding to acquire 89 homes, all of which were 
substantially damaged, and were in special flood hazard areas.
    Through effective mitigation, families in these homes chose 
to relocate out of harm's way, making way for open space that 
benefits their local communities, and stopping the damage-
rebuild-damage cycle.
    The President's fiscal year 2015 budget request includes 
$400 million for pre-disaster mitigation efforts through the 
Opportunity, Growth, and Security Initiative. These grants are 
designed to assist communities in the implementation of a 
sustained pre-disaster natural hazard mitigation grant program. 
These funds will buy down future risks by augmenting adaptation 
planning, and helping communities prepare for events such as 
wildfire, floods, and other disasters that could be exacerbated 
by an ever-changing climate.
    In support of the President's Executive order and climate 
change action plan, FEMA has a leading role in helping prepare 
the Nation for the future impacts of climate change, including 
considering rising sea levels, the increasing frequency, 
intensity, and duration of storms, and the increasing 
unpredictability of drought and wet conditions and cycles. As 
we work to reduce risk nationally, and address both hazards and 
threats, we must incorporate climate change into our data 
collection, knowledge transfer, and mitigation planning, so we 
are working towards that goal.
    Specifically, FEMA is working to integrate adaptation into 
its approach, and also the approaches of the larger Federal 
Government. To do this, the Agency is expanding its knowledge 
base and support for those who take on the challenge of climate 
adaptation.
    You also mentioned the Community Rating System. Currently 
we have almost 1,300 communities participating in the CRS 
program, which represents 67 percent of the National Flood 
Insurance policyholders.
    In conclusion, successful mitigation efforts are a shared 
responsibility, requiring an engagement with all levels of 
society and the Government. Moving forward, we will continue to 
focus on strengthening our data analytics, while setting 
priorities that will help us mitigate and buy down our future 
risk. FEMA's commitment to ensuring the success of these 
efforts rests in the fact that, ultimately--they ultimately 
result in more resilient communities and collectively make us 
stronger and more prepared, as a Nation.
    Thank you for providing me this opportunity to discuss 
these important issues. I look forward to your questions.
    Mr. Barletta. Thank you for your testimony, Mr. Miller. 
And, Ms. Langston, I know you have a lot of experience in 
flooding in your community, so I look forward to your 
testimony. You may proceed.
    Ms. Langston. Thank you, Chairman Barletta, Ranking Member 
Carson, and members of the subcommittee, for the opportunity to 
testify today. I am Linda Langston, and a county supervisor in 
Linn County, Iowa. I serve also as the president of the 
National Association of Counties, which represents over 3,000 
county governments in the U.S.
    Counties play a key role in our Nation's intergovernmental 
system, and we are a major owner of facilities and 
infrastructure, including 45 percent of America's roads, and 
nearly 40 percent of bridges. Counties play a critical role in 
justice, public safety, maintaining county police and sheriff 
departments, and investing over $70 billion in justice and 
public safety services. Nationwide, counties invest nearly $500 
billion each year to pursue community policies that enable 
economic and community development, safeguard citizens, and 
provide a variety of community investments, public health, and 
well-being.
    As president of NACo, I have implemented a resilient 
counties initiative to help bolster their ability to thrive in 
the ever-shifting physical, social, and economic conditions. 
This includes preparation for and recovery from natural and 
man-made disasters.
    As you noted, having personally survived a flood, both 
personally and leading my county's response to the 2008 floods, 
which had about 10 square miles under water, I recognize that 
there are three key mitigation efforts that must take place in 
counties across America.
    Proactive county planning is the cornerstone of flood 
mitigation efforts. Counties with land use authority are using 
it to encourage safe new development. McKenzie County, North 
Dakota, with 6,300 residents, does not allow construction in 
the special flood hazard area, and requires additional 
standards-related anchoring, construction materials, and 
elevation.
    Structural protections, like levees or dams, restore 
natural systems such as wetlands. Places such as Fairfax, 
Virginia, have a levee and pumping station project that is 
scheduled to be completed in the spring of 2019. Lee County, 
Florida, and Jefferson Parish, Louisiana, are engaged in 
wetland restoration projects. In contrast to building structure 
protections, Black Hawk County, in my own home State, is 
engaged in buying out repetitive loss properties. It has 
accumulated $5.34 million in avoided damages, at a cost at this 
point of $4.3 million.
    Counties are participating in the National Flood Insurance 
Program's Community Rating System. King County, Washington, 
with over 2 million residents, is one of only two counties in 
the country with a CRS rating of two, which, as you noted, 
results in a 40-percent discount to those in the special flood 
hazard area. It was the first county in the Nation to achieve 
this rating. CRS communities like King County are able to 
educate residents on flood risk and mitigate flood impacts, 
while lowering insurance premiums.
    The key to building and preparing and managing a disaster 
begins, I believe, by building relationships beforehand. So 
when a disaster happens, resources can be deployed quickly and 
efficiently through established networks, and pre-assigned 
roles and responsibilities. My own county board meets as a 
hazard mitigation committee. And, through this, we are more 
aware of the challenges facing us. Counties play a key role in 
facilitating these critical relationships, not just within our 
local jurisdictions, but between our State and Federal 
partners.
    Federal programs like HMGP program, or the pre-disaster 
mitigation grants, are invaluable to counties that are 
recovering from and proactively planning for disaster. We are 
pleased the Sandy Recovery Act recognized the value of HMGP by 
streamlining procedures, and allowing the advancement of funds.
    Counties play an important role in communication, both pre 
and post-disaster, including educational--educating people 
about risk of exposure. While in this room, probably everyone 
understands the term ``100-year flood.'' When I mention this 
term to people at home and elsewhere, if they have experienced 
a flood event, they believe they will not need flood insurance 
because they don't expect to live another 100 years. I would 
actually be 3,000 years old, based on the number of floods that 
I have occurred in my personal and professional life. I am 
either looking really good, or there is a problem.
    [Laughter.]
    Ms. Langston. So, I explain to people that a 100-year flood 
means that during the life of their mortgage, there is a 25-
percent chance that they are going to flood, and that changes 
the equation. It will take time and good education that must be 
continuous, to help people recognize and appreciate their risk. 
People's memories are short. As a county supervisor, it is 
imperative that we educate people about risk, because it is the 
first step to disaster mitigation. And it is in appreciating 
that risk that they can make good decisions. Education is key.
    And on behalf of the Nation's counties, I want to thank 
you, Chairman Barletta, Ranking Member Carson, and the members 
of the committee for holding this hearing on disaster 
mitigation, and will look forward to questions. Thank you.
    Mr. Barletta. Thank you. Thank you for your testimony. Mr. 
Koon, you may now proceed.
    Mr. Koon. Thank you and good morning, Chairman Barletta, 
Ranking Member Carson, and distinguished members of the panel. 
My name is Bryan Koon, and I am director of the Florida 
Division of Emergency Management, and vice president of the 
National Emergency Management Association.
    Over the years, Congress has authorized and appropriated 
significant financial and technical assistance to State and 
local governments to preempt damages and distress that result 
from natural disasters. Mitigation has done a good job at 
reducing the need for disaster response, and the overall cost 
of disasters. Done right, it prevents benefits throughout the 
life cycle, stimulating the local economy long past the 
construction phase of the project. It produces resilient and 
vibrant communities, attracting businesses, jobs, people, 
schools, and investment.
    I have witnessed the countless benefits of a strong 
mitigation program. While there are many good mitigation 
success stories, continual improvement is critical to building 
a stronger program that will lessen the impact of disasters, 
lower their cost, and protect more citizens. To truly reduce 
the cost to Americans, both in dollars and life safety, we need 
to accelerate the programs that exist today and find ways to 
make them more successful.
    The framework and structures are there. We need to dedicate 
the appropriate resources, eliminate those friction points that 
discourage participation, and demonstrate the return on 
investment and move it closer to the expenditure of the effort. 
I will use, as an example, the nexus between mitigation, the 
National Flood Insurance Program, and the Community Rating 
System in Florida.
    Thirty-seven percent of the Nation's flood policies are in 
Florida, and nearly half of the State's NFIP communities go 
above and beyond the program's requirements, earning their 
policyholders additional discounts between 5 and 25 percent, by 
taking mitigative actions credited by the higher standards of 
the CRS. This saves Floridians $191 million in flood insurance 
premiums every year and develops well-prepared and disaster-
resistant communities. However, 53 percent of Florida's 
communities do not participate in CRS; nationwide, only a 
dismal 6 percent of NFIP communities participate.
    Why is this? Here is what our members say, as well as some 
recommendations to improve.
    First, it is the smaller communities that are left out. 
Applying for and maintaining standing in the CRS programs 
requires significant staff time. And the smaller the community, 
the further down the priority list it becomes for that employee 
for whom this is a collateral duty. In addition to reviewing 
the administrative requirements for entry, FEMA should follow 
the success it has had with the program administration by 
States and apply it to CRS, allowing States to verify 
compliance and get communities enrolled through the 5- and 10-
percent discount categories.
    Secondly, there is a lack of awareness by individuals about 
the CRS program; consequently, a lack of awareness by elected 
officials. Without the appropriate level of support and 
oversight by local officials, the effort needed to enroll and 
maintain CRS standing is not adequate to make significant 
gains. We need to do a better job educating Americans about the 
impact of disasters and proven ways to help defray those costs. 
In addition to CRS, the establishment of tax-exempt disaster 
savings account to pay the expenses of home owners for disaster 
mitigation and recovery expenses, as proposed by Congressman 
Dennis Ross and Senator Inhofe, would incentivize homeowners to 
take additional actions to protect their home and property, 
further reducing the cost of disasters.
    Third, administrative hurdles and roadblocks prevent 
advancement in the CRS program. For example, in order to move 
from a Class 5 25-percent discount to a Class 4 30-percent 
discount, a community has to produce a stormwater management 
plan. While this is a worthy goal, it is a complex, timely, and 
expensive effort. As a result, only 12 of the 22,000 NFIP 
communities are CRS Class 4 or better. Many hit this wall and 
progressed no further, causing them to take no further 
mitigation efforts. FEMA should identify and remove or modify 
such restrictions to improvement.
    And finally, the program is too slow. The CRS FAQ states 
that it may take 18 months to enter the program once a 
community submits a letter of interest. This is unacceptable, 
and additional resources should be applied to accelerate entry 
into progression in the program.
    Helping communities develop comprehensive flood plain 
management programs through participation in the CRS will 
reduce flood loss. Florida's goal is to enroll every community 
in the CRS program, and we are dedicating State resources in 
order to do so. FEMA should have the same goal across the 
country, because it will reduce flood loss expenditures, 
improve resilience, and add to the culture of mitigation it 
helped create. This will require a thorough analysis of how to 
make our current programs work better, and the application of 
additional resources, where necessary. The results will be well 
worth the effort.
    Thank you, and I look forward to your questions.
    Mr. Barletta. Thank you for your testimony, Mr. Koon. Mr. 
Berginnis, you may proceed.
    Mr. Berginnis. Good morning. I am Chad Berginnis, executive 
director of the Association of State Floodplain Managers, and 
we are pleased to offer our thoughts related to the value of 
hazard mitigation to the Nation, and how we can improve our 
collective national mitigation effort.
    Thank you, Chairman Barletta, Ranking Member Carson, and 
this subcommittee, for its longstanding and continuing 
affirmation that hazard mitigation is an effective pathway to 
reducing disaster losses. Time and again, this subcommittee has 
introduced, evaluated, and refined Federal mitigation 
strategies, resulting in the solid framework that exists today 
that gives State and local officials many tools to deal with 
the ever-increasing problems of natural disasters and, 
specifically, flooding. ASFPM's 15,000 members and 35 chapters 
are the country's practitioners who work with flood hazard 
mitigation programs on a daily basis.
    According to NOAA's National Climate Data Center, the U.S. 
has experienced 151 weather and climate disasters since 1980, 
where the overall damages exceeded $1 billion. The total cost 
of these events exceeded $1 trillion. Of that total, we have 
had 32 such events in the past 3 years. With today's advanced 
modeling capabilities, for example, we know that we can see 
disasters on the magnitude of Katrina or beyond. The ARkStorm 
scenario for the Sacramento area is based on a flood event 
similar to which occurred in California in 1861, would result 
in three-quarters of a trillion dollars in damage if that event 
happened today.
    Population trends and climate change are increasing the 
Nation's vulnerability. And as cost of disasters continue to 
rise, governments and citizens must find ways to reduce risks 
from all hazards, but especially natural hazards.
    ``Floods are an act of God, but flood losses are largely an 
act of man,'' was a statement made by the late Dr. Gilbert 
White, who is also known as the Father of Flood Plain 
Management. Whether it be floods or other hazards, the only way 
we can reduce these disaster losses in the near and long term 
is through hazard mitigation. We have the ability to reduce 
these losses.
    Hazard mitigation must be a joint effort among all level of 
governments, individuals, and the private sector. Everybody 
must do their part, and it is important that you know the 
Federal Government's investment in hazard mitigation is being 
supplemented by many State and local investments, as well. The 
Village of South Holland, Illinois, is one such community. They 
have established a unique mitigation rebate program available 
to all property owners residing in the village who wish to 
complete flood control projects within their home.
    We have seen communities pass sales tax and income tax 
increases to fund mitigation outright, or match Federal funds. 
And, at the State level, many communities, including 
California, Minnesota, Wisconsin, Ohio, New Jersey, and South 
Carolina, have their own unique hazard mitigation programs, or 
a tradition of matching Federal mitigation funds. Such programs 
should be encouraged, incentivized, and increased. States and 
communities should not depend entirely on the Federal 
Government to address their natural hazard risk.
    I do want to talk about a couple of key mitigation 
activities that would be within this committee's jurisdiction 
to address, as it relates to Federal mitigation programs. Our 
written testimony has a lengthy list of recommendations that 
are both within and outside of the committee's jurisdiction. 
But I want to focus on two areas: pre-disaster mitigation and 
speeding up mitigation assistance under the Stafford Act.
    Like the committee leadership, ASFPM also shares the 
concern over the elimination of PDM. And we are very 
disappointed that over the last several years, time and again, 
FEMA has chosen to zero-out this important program in light of 
mitigation demand being unprecedented, and a new driver of that 
demand, which is NFIP reform, is now present. We have invested 
significant resources in hazard mitigation planning, so that 
now over 19,000 communities have adopted those plans, and they 
depend upon PDM as one source of funding to update those plans. 
And it is especially critical in States that do not receive 
large or frequent disaster declarations where they can use the 
HMGP program.
    And when PDM is the proposed delivery vehicle for the $400 
million in competitive grants to State, local, and tribal 
governments through the President's Opportunity, Growth, and 
Security Initiative, we are puzzled why the program continues 
to be slated for elimination.
    State mitigation leaders in several States have told us 
that, even with disaster declarations, the small amount can be 
used for mitigation planning. They will be hard-pressed to help 
communities to maintain those plans.
    The committee has done much work in helping speed up 
Federal mitigation assistance, but I would submit that what we 
need to look at it speeding up the initiation of mitigation 
projects, as opposed to limiting the overall timeframe for 
funding to be spent.
    What outcome are we striving for? Wouldn't it be nice if 
you, as Members of Congress, didn't have to pass supplemental 
disaster appropriation bills after a major hurricane or flood 
strikes? Or at least deal with a much smaller bill. Hazard 
mitigation can take us to the point that, when the next 
disaster occurs, damage is minimized, cleanup is quick, and 
people get back to their lives quickly, and with minimal 
disruption.
    As one of my colleagues says, ``We should be starting 
mitigation when the fish is still flopping on the couch.'' 
Thank you.
    Mr. Barletta. Thank you, Mr. Berginnis. I will now begin 
the first round of questions, limited to 5 minutes for each 
Member. If there are additional questions following the first 
round, we will have additional rounds of questions, as needed.
    Mr. Miller, we are focusing today on practical steps 
communities can take to lower their costs and premiums. The 
FEMA's Community Rating System that we talked about, CRS 
program, is a voluntary program that allows communities to 
engage in certain mitigation activities that will lower their 
flood risk and, in essence, buy down their insurance premiums. 
Can you talk generally about the specifics of the program, and 
why it is beneficial for communities to participate?
    Mr. Miller. Yes, sir. As you spoke, probably the most 
evident beneficial piece of the CRS, is to buy down flood 
premiums, community-wide. We would like to think that the 
bigger effort, though, is to reduce the risk in the community. 
And it starts with education processes.
    One of the first things that happens in the CRS program is 
we go do a community assistance visit to establish, in effect, 
the baseline that they are starting from. In many cases, they 
meet that first standard just by doing the public education 
pieces that buy down some risk.
    But after that, as everybody has pointed out, the effort 
becomes more stringent, and requires investment, and sometimes 
considerable investment for the community. We talk about 
effective flood plain regulation, and those that go beyond the 
pale. We have restrictions currently in the NFIP about how we 
build, where we build, and the permitting processes. This 
builds that up a piece. It also recognizes more stringent 
building codes, and those efforts. But those become permitting 
processes that agencies go through. They take other effective 
measures to protect their communities, whether it is building 
structural or nonstructural projects that mitigate loss. Those 
count in the CRS program.
    Recently, we went through in the last year and re-evaluated 
all the things that counted for CRS. One of the parts is now 
that we have a history of what has been most effective. At the 
same time, in doing the realignment, we didn't penalize 
communities that had already reached a level--we are giving a 
transition period because the point system changed. So it 
wasn't to penalize, but it was to update and move to a more 
effective mitigation, based on our history and experience.
    Mr. Barletta. Now, currently, Mr. Miller, 1,273 
communities, representing 67 percent of all NFIP flood 
insurance policies are participating in CRS. How does a 
community not currently in the program apply, and what are some 
of the basic requirements for entering?
    Mr. Miller. I would need to get back to you on some of the 
basic requirements. The application process basically is 
telling us you are interested in it.
    I think one of the ones that shy communities away is this 
community assistance visit, and the statement of where they are 
in their mitigation efforts, and the risks that are there in 
the community. It is an evaluative process. For instance, in 
New York, we had a discussion of participating in the CRS by 
New York City. The other question was could they come in 
borough-by-borough. Well, right now our rules are about cities. 
But I know one of the things that weighed on their minds was 
this establishment, this visit that says, ``How do we get 
through this? Look at the documentation where we are, so we 
know starting points.''
    But then it is about the investment that is considered as 
they went through. And in some cases, it represents thousands 
of dollars in small communities. But in other communities, it 
can represent millions of dollars to be involved in the 
program.
    It requires some design. When we met with officials in 
Oregon, they found it was very, very much to their benefit to 
move in certain areas, and the benefit of their community. But 
to get to a level one was going to be cost prohibitive for 
them, and they weren't seeing the return on that investment. It 
does cause us to relook the CRS, it does cause us to look at 
those mitigated benefits. But the community investment, the 
community discussion, the expression in interest, where their 
baseline is, and that investment is an important part to the 
equation.
    Mr. Barletta. Ms. Langston, out of the more than 1,200 
communities in the CRS program, only one has the highest 
rating, with the 45-percent discount on their insurance 
premiums. In Pennsylvania we have 25 communities in the 
program, and the highest discount is 20 percent.
    Now, Mr. Koon, you talked about what some of the hurdles 
were. Ms. Langston, can you talk about what some of the hurdles 
are, and how can--what can communities do to improve their 
rating? And how do they overcome them?
    Ms. Langston. Well, first, I think, as Mr. Koon noted, 
especially in smaller communities it can be a challenge, just 
in terms of time, and the reality, as Mr. Miller has noted, 
thinking about a visit.
    I know my county is a participant in CRS. We are, sadly, 
one of the only counties in Iowa that is doing that. And we are 
encouraging some of our fellow counties to come on. It does 
take the work of really looking at your stormwater management 
plan, your engagement plan. And I think, in the land of local 
government, we are stressed to do more with less right now, and 
that oftentimes makes these arenas difficult.
    So, it really does become about an education effort. And 
when the discount is relatively small--5, 10, even 15 percent--
it may not be seen as enough of a motivation. If you can do the 
work that actually gets you to the 30, the 40 percent, then you 
actually have people in your community who say, ``Sign me up.'' 
So I think that is the balance that we face in this, is trying 
to make it accessible enough.
    I also think there are opportunities for, whether city or 
county, to do more. It is really that education effort that 
makes a difference.
    Mr. Barletta. Mr. Berginnis, can you add anything that you 
see as a hurdle, or what they can do to improve their ratings?
    Mr. Berginnis. Yes, certainly. In terms of strategies on 
improving--and I will actually turn to my good friend, Mr. 
Koon, in Florida, and emphasize something that was really 
groundbreaking that the State of Florida did at the State 
level, is hiring a CRS coordinator at the State level. That is 
something that States could do. They do have capacity through 
their State flood plain management offices. They build 
capability through assistance, through a community assistance 
program.
    But what those States here, as coordinators, can do is they 
can also look and obtain credit, what are called uniform State 
credits, that then help any community in that State, when they 
join the CRS, to have better scoring changes. And we think that 
is a good possibility.
    If your small or rural communities--I have been in the 
flood plain management--State flood plain management office 
where I have done those community visits, and I have worked 
with rural communities that way, as well--and communities might 
want to think about banding together regionally, and perhaps 
securing a CRS coordinator resource that way.
    Another idea might be a new use for the pre-disaster 
mitigation program. And a new and unique use, and maybe a gap 
here, is to allow, from an eligibility standpoint, projects 
that would help build CRS capability at a local level, at least 
to get that--provide that seed money to get communities through 
the application process.
    So, those might be a few strategies. Thank you.
    Mr. Barletta. Mr. Koon, do you have anything to add to what 
you have already testified to?
    Mr. Koon. Yes, sir. I think one of the things that we are 
trying to accomplish in Florida--and perhaps other States could 
do as well--is, as Mr. Berginnis said, get enough points at the 
State level to apply to that uniform minimum standard, so that 
those smaller communities could take advantage of all of those 
points available at the State level to get them enrolled in the 
program. And that will spur further interest to drive them to 
do additional work at the local level.
    So, if the State can get above, say, the 500 points 
necessary to achieve the Class 9 5-percent discount, 
automatically enroll, or allow the State to automatically 
enroll those communities, that gets the conversation started. 
That gets them aware of the program, into the program, and then 
they will start thinking about how to reach that 10 percent, 15 
percent, and additional discounts.
    Mr. Barletta. Thank you. I would like to now recognize 
Ranking Member Carson for 5 minutes of questions.
    Mr. Carson. Thank you very much, Mr. Chairman.
    Mr. Miller, as part of the fiscal year 2015 budget, the 
President is proposing a pre-disaster mitigation fund. During 
the budget briefings with staff, FEMA personnel indicated that 
this is being called a pre-disaster mitigation fund, but it is 
completely different from the existing mitigation program, 
which funds mitigation projects before a disaster even occurs.
    Please explain for us, sir, the differences between the 
existing program and the proposed program, as well as provide 
some examples of the type of projects that are currently 
eligible for the existing PDM program that would no longer be 
eligible.
    Mr. Miller. Thank you. I think one of the big differences 
is the focus. In the President making the announcement, the 
focus really focuses on climate change and climate adaptation 
strategies.
    One of the criticisms of FEMA, even in our mitigation 
program, although it is about mitigating against future losses, 
is the data and the analytic that we often use is historical in 
its view. We are always mitigating against yesterday's event.
    What I think the new effort is to do is to mitigate against 
future events, and give a better look to the science that 
projects into the future. Now, a lot of that science, a lot of 
that data, is less precise than what we would normally allow in 
the program. One of the issues that would come up under the new 
PDM is how do we get to a different benefit cost analysis that 
allows a more future look. There is a lot of work in that area. 
But I think the key difference is it is focused more on the 
climate, climate adaptation strategies, even though they have 
an overall mitigated value.
    One of the other things that has always concerned us as we 
walk through projects is a lot of times what we do, especially 
when things aren't cost beneficial, we actually penalize 
communities by taking advance measures, because we won't fund 
them. Under the public assistance program, if you wanted an 
alternative product or--alternative project or an advanced 
project, it might not be eligible. This changes that equation. 
It is a greater partnership between us and public assistance. 
It is a way to do pre-disaster mitigation with a completely 
future look. So, while the mechanism would be the PDM grant 
mechanisms, I think the look of PDM would change, and it would 
have that deeper analytic for a future projection.
    Mr. Carson. Thank you. Madam Langston, for years the 
committee has held hearings on the benefits of mitigation. And 
all of us here today recognize the need of benefits of 
mitigation. Yet, it seems that some communities are still 
resistant to undertaking mitigation activities, even if 
incentives are provided.
    So, as a local community representative, what do you 
think--why do you think other communities are so resistant to 
mitigation activities, even when the evidence overwhelmingly 
shows that lives and money are being saved?
    Ms. Langston. I would say that this hails back to the issue 
of education. At the local level, we have many counties--I 
would say even within cities--whose property tax levels are 
constrained. And within that constrained environment, taking 
mitigation efforts where you spend minimal dollars--and you 
have to get community buy-in--can be something of a challenge 
at the local level.
    So, as I noted before, I think a lot of it is within the 
realm of education, and being very specific about what the 
risks are. So, to Mr. Miller's comments, in my own home 
community we have looked at the flood risk. We are trying to 
not only advance buy-outs, but we are also trying to do flood 
walls.
    The response that we got from the community for two rounds 
of using a sales tax to build flood walls was to turn it down, 
albeit by a very small amount. The community said they didn't 
think it would ever happen again. Now, partially, that could be 
our fault, that we were not clear enough in doing the future 
forecasting that Mr. Miller spoke about. It hasn't happened 
that much in the past, so why would it happen in the future? 
Why should we spent all of this money and time?
    The secondary part, I would say--and we worked very hard to 
build our partnerships with, for instance, the home builders. 
And developers put a lot of pressure on local officials in 
their zoning laws. So when you seek to not only do mitigation 
itself, but you seek to put the zoning in place that requires 
people to build out of or further away from flood hazards, it 
is seen as an attractive place, and home builders want to do 
that. So that takes a long-time effort in local communities, 
building the kinds of partnerships that people see this as a 
value. Having open space next to rivers is a valuable thing. 
Parks are good. And that is where our community is going, is 
turning that entire area next to the river to greenways. That 
takes a lot of relationship-building.
    So, I think it is really--it is a time issue, and it is 
about having your local officials, who are committed to 
building those kinds of relationships that really have the 
longer view in a community. Thank you.
    Mr. Carson. Thank you, ma'am.
    Mr. Barletta. Thank you. The Chair would now like to 
recognize Ms. Norton, who is the former ranking member of this 
committee, and currently the ranking member of the Subcommittee 
on Highways and Transit.
    Ms. Norton. Well, first, let me thank you, Chairman 
Barletta and Ranking Member Carson, for this hearing. This is a 
very important and, I think, timely hearing. And may I ask the 
ranking member if I might be added to his bill? I commend him 
for it.
    Mr. Carson. It would be more than an honor, ma'am.
    Ms. Norton. Thank you. Mr. Chairman, this is one of my 
favorite programs that the Congress has. It is--but it is a 
very rare example of the Congress being able to fund before the 
fact. We just don't do that. Congress, of course, has an annual 
appropriation process; that may be one of the reasons. But it 
almost never funds to save. It insists on funding with a great 
deal more required after something has happened. It need not 
even be a disaster. Whatever it is, it has to have happened. 
Its effect, though, on communities now, we have to begin to 
take account of. If for $500 million invested you can get $1.6 
billion in return, if you were a private investor, you couldn't 
resist that. Only the Federal Government could resist that, and 
it continues to do so, and it is very bothersome.
    Indeed, I have to ask you, Mr. Miller. Apparently, this 
program is being revamped. I commend you in the way you are 
looking at the new kinds of disasters, climate-change disasters 
we are having. But how could you revamp the program for the era 
of climate change with the same amount of money, no increases 
in funds? How do you justify that?
    Mr. Miller. The fact is, ma'am, we are in those tight 
budget times. And you are right, they ask for mitigation, the 
investment of mitigation. The requirement that we hear from our 
communities far exceeds the funding that we have. A lot of the 
answer that we are looking for is how do we streamline our 
efforts, remove some of the road blocks of use of funds, and 
where is the best place for investment.
    Ms. Norton. Remove some of the what? I am sorry.
    Mr. Miller. The road blocks to funding. We have looked at 
the Administration processes, and streamlining through our 
grants process. So whether it is the hazard mitigation grant 
program that comes after a disaster, whether it is the flood 
mitigation assistance programs that come with severe repetitive 
and repetitive loss under the flood insurance fund, whatever 
those programs are, we are working to streamline them, make the 
application processes easier, and get the money out faster.
    Ms. Norton. Are you saying that all of that is going to 
produce savings in some way? I am trying to figure out how you 
are going to do what you clearly understand has to be done with 
the same funding at--that we have had before, when there was 
less understanding.
    So you talk about savings. Are those savings going to be 
applied to this program?
    Mr. Miller. Yes.
    Ms. Norton. So it is going to be more than $400 million 
when it is all over.
    Mr. Miller. Well, the $400 million proposed, ma'am, is yet 
to come. It is in the President's Budget.
    Ms. Norton. Yes.
    Mr. Miller. The plan is what are we going to do with it if 
we get it. And if we get it, it will come through the PDM----
    Ms. Norton. What is the present funding?
    Mr. Miller. The present fund, under PDM, as the vice chair 
has pointed out, is zeroed in the President's Budget. Congress, 
last year, put in $25 million nationwide in that budget. It has 
been as high as, I think, $100 million or a little over $150 
million in previous years.
    I think one of the questions that always came up was the 
ability to execute funds. We talked about it, Mr. Berginnis 
talked about using the funds for planning. And yet, when we 
analyze the use of the PDM, only about 18 percent of it was 
used for planning. Part of it is because planning dollars are 
available in other programs. They come in the Emergency 
Management Performance Grant. You can fund them under the post-
disaster HMGP, although it is a limited amount of money. You 
can fund them under flood mitigation assistance. There are 
other mechanisms for the planning part.
    I think the larger question there is what is available for 
projects. And when we get to projects, a lot of the projects 
are multiyear in their purpose. So, one of the questions that 
always came--and this gets into the streamlining--is how 
quickly can we execute the money that we are given, and--rather 
than rolling it over. And we have to execute those monies. And 
yearly in the PDM, and in any of those programs, we tend to 
roll money over for projects. That becomes bothersome.
    So, it is a streamlining, it is a looking at where funds 
are otherwise available, it is moving projects faster through 
the system, whether it is getting through construction seasons, 
doing more pre-planning upfront, it is working with the 
communities to make those things happen quicker.
    Ms. Norton. If you--if climate change--and I commend you 
for factoring climate change into your work; I am very 
interested in how you do that.
    We are having unprecedented climate. There was a recent 
report released just--I think it was this week or last week, in 
which scientists, the scientists who have all the knowledge, 
and we understand it now more than--almost 100 percent of 
scientists say that climate change is in operation. But this 
report says we are already in it. This is no longer we are--
``This is what is going to happen.'' It is happening. And you 
talk to the people who experienced Sandy or the mud slide, and 
they will tell you that for those who want to be deniers, they 
have experienced it.
    The problem is that these were unprecedented disasters. 
Sandy, for example, has had--we have had hurricanes going all 
up and down the east coast, but nothing like that. The 
President--I am sorry--the Governor of New York is talking 
about doing away with part of the shoreline, and no longer 
having what is there there. Are you engaged in that kind of 
really foresighted advice to--as part of mitigation that 
apparently the whole vision of what you did before is no longer 
viable, in light of these unprecedented storms and other 
climate events that we are experiencing?
    Mr. Miller. Yes, Congresswoman, we are. And let me use an 
example. When we did Superstorm Sandy, we knew that we were 
already--in different places within the community we were all 
looking at mapping actions that reflected current risk. And you 
know for our flood insurance program, the mapping actions, 
whether you are in the special flood hazard area or not is a 
big part of what drives the program.
    We also knew, because of Biggert-Waters legislation, that 
if we did the rebuild wrong, and people built below base flood 
elevation, they used old data and old maps, they would build 
wrong and they would get penalized under the NFIP. So, the 
effort was to give them best available data, even though the 
maps weren't refined, weren't completely vetted, didn't go 
through the process. We worked very hard in doing that, worked 
with the State of New York, worked with the State of New Jersey 
to put those maps out.
    But here was the difficulty, and I think it exemplifies 
what happens in the community. We could put out best available 
data, and the thing we got pressed on is were we going to 
account for one of the areas relative to climate change and 
adaptation, sea level rise. There is a number of studies about 
sea level rise, that they happen on this continuum, with this 
variable of this many feet over this many years.
    How much of that were we going to incorporate in our maps? 
And, probably more importantly to the communities, what were we 
going to use to regulate, and what were we going to use to 
inform?
    But as we were looking at sea level rise data, just sea 
level rise data, given the preciseness of our maps, and getting 
the information out quickly, because we were thought to be 
conservative, in some cases they thought we over-projected what 
sea level rise would do. Instead of promoting building, we 
stopped it, because people were waiting on more preciseness to 
know whether they had to build to this standard or this 
standard, whether they were in the special flood hazard area, 
or they weren't. It is about that monetary investment, and it 
lives in that fine line of data and data analytics and, more 
importantly, the preciseness of that analytic.
    So, while we want to move in those directions, communities 
have real decisions to make about the level of dollars 
invested, and the permitting they are going to do.
    Mr. Barletta. Thank you, Ms. Norton. We will have a second 
round of questions. Very important hearing, and a lot of 
information.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And Mr. Berginnis, I 
will start with you on this end. This question applies down the 
road.
    As we look at the Sandy Recovery Improvement Act, and the 
mitigation implementation as it relates to that, two things 
that work really well--I want you to give me two things that 
worked really well, and two things that didn't work well, if 
you can do that, so that we can hopefully address that in 
future legislation. Mr. Berginnis?
    Mr. Berginnis. Sure, and I apologize to Mr. Miller; I may 
take some thunder from FEMA. But I do want to compliment them 
on a couple actions they took after the Sandy Recovery Act. And 
one of those was the advanced assistance program, in terms of 
authorizing that, and allowing States to use those funds, for 
example, to do things that they couldn't previously do.
    When I was a State mitigation officer in Ohio, for example, 
we needed to do flood studies to prove benefit cost analysis. 
And under HMGP we couldn't do that. The advanced assistance 
specifically authorizes activities like that so you build good, 
credible mitigation projects.
    And it also--I think the spirit of SRIA then also allowed 
FEMA to prioritize the program delegation--or program 
administration by States. That, again, allows States to have 
more stake and more control over the whole application process.
    I only have--I have one, I think, critique and perhaps 
unintended consequence. And that is the legislation basically 
shortening the period of obligation and the time that funds are 
available for mitigation. And this is--this goes to my earlier 
point, that maybe we should look at when mitigation projects 
actually start, because there is a lot of work to be done 
between the time a disaster happens and actually getting a 
full, eligible mitigation project that communities buy into. 
There is a lot of time. And many States, that takes over a year 
of process.
    Sometimes States can be very quick and do things in, like, 
6 months or those types of things. We need to look at that part 
of the process. FEMA has been doing a good job of improving 
some of the tools, benefit cost analysis and things, but we 
have the next bottleneck, which is when States actually get 
those projects turned in, and then reviewed, and then funded. 
And by shortening a deadline, that doesn't have much of an 
impact, in terms of improving that process. Thank you.
    Mr. Meadows. So let me follow up on that.
    Mr. Berginnis. Sure.
    Mr. Meadows. So you are saying for a longer deadline is 
going to get the States--it is going to encourage them to move 
quicker?
    Mr. Berginnis. Not necessarily. What I am saying is that--
--
    Mr. Meadows. Because, normally, deadlines make--if the 
funds go away at a particular time--and maybe it is different 
in some of the States you deal with, but they normally work 
towards a deadline. And if you give them 18 months, a whole lot 
of work gets done in the last 2 months, prior to the end of the 
18 months.
    And so, I don't know how that would help speed up, or make 
it any more efficient.
    Mr. Berginnis. What----
    Mr. Meadows. I think Mr. Miller wants to comment on that, 
and I am running out of time.
    Mr. Berginnis. Oh, OK, sure.
    Mr. Meadows. So let me jump to you, Mr. Miller.
    Mr. Miller. Yes, I would like to add on to Chad's comments. 
There is a couple things that we notice, relative to timelines 
and implementation. And for purposes of disclosure, I used to 
be the State director of emergency management in Iowa, and 
worked with Linda in the 2008 floods.
    Mr. Meadows. So you had the other shoe on the other foot. 
OK.
    Mr. Miller. Yes. The challenge about working at FEMA is all 
the questions I had I now have to answer.
    But I think a part of it, and what we discuss often, as 
much as we have worked in FEMA in trying to streamline our 
processes, it is how communities are positioned to take 
advantage of them. One of the things we have all struggled with 
is that community capacity to engage mitigation when it becomes 
available. And too often, especially if you don't have a large 
number of disasters, you haven't built that capacity, or there 
is no State or local investment in that capacity, all the 
things necessary to move a mitigation project come after the 
disaster, when time is of the essence.
    So, it is delayed, you are trying to rebuild, you are doing 
all the public assistance stuff, mitigation gets set aside. And 
yet it should complement the rebuild. It is about that capacity 
and capability building, as Linda has echoed. It is about 
positioning your community to take advantage of that prior to 
the disaster. And too often, we don't see that happen.
    Mr. Meadows. All right. And I can see I am running out of 
time, so I would ask each of you, for the record, if you would 
just respond--two good things, two bad things--and get it back 
to the committee.
    And I thank the chairman for his indulgence. I yield back.
    [Hon. Linda Langston, president, National Association of 
Counties, and supervisor, Linn County, Iowa, responds below to 
Hon. Meadows' request for information:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Bryan Koon, vice president, National Emergency Management 
Association, and director, Florida Division of Emergency 
Management, responds below to Hon. Meadows' request for 
information:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Barletta. Thank you, Mr. Meadows. The Chair now 
recognizes the gentlewoman from Maryland, Ms. Edwards.
    Ms. Edwards. Thank you. And thank you to the chairman and 
the ranking member. For somebody like me, who is not 
particularly an expert or know anything about disaster 
management and those things, I just have a kind of question 
that I get a lot of times from some of my constituents, and it 
has to do with areas where there are repeat losses and 
reimbursements and relief efforts. Times when there are areas 
of the country that are in the flood plain where, you know, 
there are numerous disasters, and disaster relief kicks in, and 
it feels like the relief is just over and over again.
    And I wonder how, in the use of community rating, other 
than a community sort of stepping up and saying, ``I want to 
participate, I want to do these things so that we can reduce 
our cost and liabilities,'' but also so that communities have 
the ability to kind of better manage a disaster--but it seems 
to me that there are more incentives in various parts of our 
statutes that are disincentives for participating in the 
Community Rating System. And I wonder if you could speak to 
that.
    So I am thinking, for example, under--in our agriculture 
support statutes, the kinds of reimbursements that are made, 
and when. And for, you know, general kind of disaster relief, 
that there are more incentives for not participating than there 
are for participating. And so that might actually account for 
not as many communities as we need doing the things that they 
need to do to mitigate disaster, and then enable taxpayers to 
save a little bit of money.
    And so, I just wonder if you could speak to that. Anyone? 
Mr. Miller, start with you.
    Mr. Miller. All right. I think there are a number of pieces 
that are there. And you talk about the disincentives. I think, 
as Ms. Langston has pointed out, a lot of that is an education 
process. One of the problems that we have in disasters always, 
in FEMA trying to put its good foot forward, was we are here to 
assist, we want to be very active, and we get very much 
disaster survivor-centric.
    But what that does--and it sends a message, inadvertently--
is no matter what your disaster, regardless of your level of 
loss, we are going to be here to help you recover. But the 
truth is the money is to help you get back on your feet. You 
don't come close to recovering all of your losses. So the 
message is mixed, is if I don't do anything I get this, but if 
I do something I may get some of this, but I will get it in a 
different avenue.
    Again, an experience in New York for me, personally, was we 
went up and went to a disaster assistance center. And I am 
standing there, and I am watching people walk in and apply for 
individual assistance status. And they think they are going to 
get a max grant, which is a little over $33,000. But the 
average grant is only $5,000. So, they are disappointed.
    Then we go to the other side, and I have somebody who comes 
in who has flood insurance. And what they saw was people were 
getting their individual assistance check in days. But, because 
of the insurance process, I have to go out, verify loss, and do 
these things. The person who bought their insurance was waiting 
weeks to get it. Now, we worked to streamline that process and 
get them their assistance quicker. But in their mind, ``I paid 
for my insurance, I did the right thing, and you just penalized 
me by delaying my payment for weeks, while people on the other 
side were getting theirs in days.''
    Those are the misperceptions and the issues that we have to 
solve to change this risk dynamic and how we pay for disasters 
and how people recover.
    Ms. Edwards. Do you think we can do that by statute, or is 
it really by education? And go ahead, Ms. Langston.
    Ms. Langston. I would humbly suggest, Congresswoman, that 
some of this really has to happen in the local community, and 
it has to be driven by community engagement. I am not entirely 
sure you can legislate that.
    I would give you the example of something that is very 
personal. In 2002 my house flooded. It was the day of a 
primary. The headline read, ``Wins Primary, Loses House.'' So 
that was back in 2002. I just sold my house on Tuesday at 
something of a discount, I might add, but after the city had 
made the decision--this is 12 years since that flood happened--
to use some money that they had gotten through local option tax 
for flood recovery to put in a berm in this neighborhood.
    I would humbly suggest that, were I not an elected 
official, and I did not bother my city officials, that may 
never have happened. I made sure that the Watershed Management 
Commission stayed alive. I kept doing that so that all of the 
community said, ``We cannot afford to lose this tax base. This 
would be a poor idea.'' But that is to the future, something 
that the Army Corps of Engineers does not take into effect. 
That was a community responsibility. Sadly, that money was in 
place because the wider community had a flood in 2008. And, 
while that got close to my house, it didn't take it down again.
    So, it is about that engagement process. As I said, most 
commonly, people do not understand risk in their community. I 
would humbly suggest if you look to Japan from the 1600s, they 
have little markers up in the hills that say, ``Do not build 
below here,'' and the tsunami came, and the building--it 
happened at the shoreline. We have to put rules in place.
    I would note again in Black Hawk County and in the city of 
Cedar Falls, their city council took very proactive, very 
stringent flood requirements about where and how homes could be 
built. And it was a political risk. But it will make a 
difference to the future of that community. It will prevent 
people from flooding. I am not sure that those things can be 
legislated, truly, from either here or from the State level. It 
has to be a community having a conversation about their risk. 
And whatever incentives we can get, I would appreciate. But it 
has to be that partnership. Thank you.
    Ms. Edwards. Thanks, and I think my time has expired. I 
know Mr. Berginnis wanted to respond, but my time has expired.
    Mr. Berginnis. Thank you, Congresswoman. There--and these 
are all some very good points. I want to go back to a few 
points that were made earlier in terms of the value of 
mitigation planning. And one of the requirements that exists 
right now is that if a State fails to maintain its mitigation 
plan, there is no public assistance available after a disaster. 
We still don't have within the Federal Government the right 
ties, I think, between incentives and disincentives. And we 
have to, I think, talk frankly about disincentives or penalties 
for also not doing the right thing.
    So, what would happen if you brought that requirement down 
to the community level, that if a community doesn't update and 
maintain its mitigation plan, they no longer receive public 
assistance, which is really the largest category of disaster 
assistance? There can be more disincentives built in to 
existing programs.
    I would also look at the U.S. tax code. Currently, the 
casualty loss deduction is maximized to--for people that do 
nothing to mitigate, because you deduct things like insurance 
settlements, mitigation, and those kinds of things. Can we make 
some reforms in the tax code in the casualty loss deduction or 
even tax credits--Mr. Koon, I think, mentioned, and I know 
there is a legislative proposal for tax-favored disaster 
savings accounts--those are the kinds of things, I think, that 
can also be changed to incent the right behavior and reverse 
these perverse disincentives that we have. Thank you.
    Mr. Barletta. Thank you, Ms. Edwards. I am going to 
recognize each Member for an additional 5 minutes. This is a 
lot of good information.
    Mr. Berginnis, you mentioned that the lack of technical 
assistance is one of the hurdles for communities in the CRS 
program. Can you talk more about this, and what could help 
address this problem?
    Mr. Berginnis. Certainly. I think there is--there are two 
things that could be helpful. One of those--and, again, it is 
an existing FEMA program called the CAP-SSSE program--that 
provides some funding and resources to States to build and 
maintain a State flood plain management capability, and that 
has been very successful over the last several years. And so, 
the CAP-SSSE program could be resourced adequately to help 
communities and also help apply for those uniform State credits 
for the CRS program.
    What doesn't exist right now is in the State mitigation 
program side of the world. There is no equivalent program to 
CAP-SSSE. And a lot of States, especially those that don't 
receive many disaster declarations, they--typically, their 
capability ebbs and flows, depending on disasters. And, as Mr. 
Miller pointed out, we need continuous State capability to 
handle the big event when it comes. So, to build a similar 
program that could be funded under PDM or another mechanism 
would be helpful. Thank you.
    Mr. Barletta. This question is for all the witnesses here. 
Between the hazard mitigation grants, the pre-disaster grants, 
and the flood mitigation assistance grants, we spend hundreds 
of millions of dollars on mitigation. How can we better target 
these grants to reduce flood risks and enable communities to 
lower their flood insurance premiums, either through the CRS 
program or otherwise? And, Mr. Miller, you can begin.
    Mr. Miller. I think part of it is--and it is a discussion 
we have had for a long time--is where do we focus. You 
mentioned, sir, that the main area of focus is on flooding and 
flood mitigation as the number-one cause of damages. A lot of 
our efforts, I think, if I remember right--and I can get you 
the true figure for the record, but I think 60 or 70 percent of 
our funds go through--for flood mitigation kind of activities 
out of--in 2012 I think the total mitigation assistance was a 
little over $800 million. It is clearly not enough to do 
everything we need to do in those areas.
    But more importantly, what we try to do is get States and 
local governments some variability. And we have seen areas 
where they have tried to direct assistance to focus on a 
particular hazard, because that was the event that occurred. We 
have seen others where they have seen a large variability in 
what they want to do. For instance, in my State, if we had a 
disaster, the cause may be flood, but the disaster assistance 
available through the mitigation program is for any hazard in 
any county, whether they were affected or not. Other States 
changed that focus.
    If communities aren't well-positioned to do that, you see 
them reach for low-hanging fruit. They may do property 
acquisitions. In some States they may do elevations. But they 
may not do the more effective or harder projects that need to 
get through cost benefit that may have a broader community 
benefit. Those are some of the challenges we all have. Are they 
ready for project? Have they planned for projects? Do they know 
where they are going to go and how they are going to get there? 
Are they going to pick low-hanging fruit that has a mitigative 
value, but probably not the bigger bang for the buck that we 
are all looking for?
    Mr. Barletta. Ms. Langston?
    Ms. Langston. I would note that certainly flexibility is 
good, and the comment has been made earlier that regional 
opportunities exist. From my perspective, disasters rarely know 
political or geographical boundaries. They happen--and 
certainly, Chairman, in your home State of Pennsylvania, being 
familiar with a number of your Members there--because it takes 
in a good deal of land, I think the critical piece is giving 
the flexibility and incenting local governments to work 
together.
    So, flood plain management, thinking of watershed, regional 
watershed, authorities that cover thousands of acres so that 
your mitigation is not always looking at building a flood wall, 
which may be partial to the solution, but the larger solution 
may be a 15-county response to watershed management. And that 
kind of flexibility is not something we have been as good at 
incenting, although there are dollars now available to that.
    So I think, especially when it comes to that kind of 
response for flooding and disasters, the requirement to look 
more broadly, incenting communities to work together.
    Mr. Barletta. Mr. Koon?
    Mr. Koon. Mr. Chairman, I believe we can make progress in 
this by helping to incentivize the communities to participate 
in the Community Rating System, by streamlining the processes 
involved with applying for and continuing to improve your 
standing within the program, helping to raise awareness of 
citizens and the elected officials as to the potential return 
on investment on time and money spent on that program, and 
providing the assistance to those 94 percent of the communities 
not currently enrolled in the Community Rating System. Get them 
into the program, help them understand how it can save their 
policyholders money, and how it can improve the resilience of 
that community. Once they understand that it exists, once they 
understand how the monies that are out there can be spent and 
utilized, I think you will see a continuing evolution, and 
people participating in this program, and a continued benefit 
to the country from their participation.
    Mr. Barletta. Mr. Berginnis?
    Mr. Berginnis. I think one way that this can be done is 
having--as mitigation plans get updated and get better, is to 
focus mitigation plans on the action piece of those. You know, 
we spent over a decade building that local capability, and 
communities have all-hazard mitigation plans. But a deficiency 
that I have tended to see in those, in having reviewed many of 
them, is that the action element of that plan tends to not be 
as specific and as action-oriented as it could.
    And to the extent that those plans can be specific and very 
proactive, and even perhaps to the extent that the plans 
achieve what I think folks initially thought mitigation 
planning should do, which is to almost have fairly ready 
projects that could be funded once disasters happen, or when 
other opportunities occur, then I think, as a Nation, we will 
be able to take advantage of those mitigation opportunities and 
target resources that are available more towards this flood 
problem.
    Mr. Barletta. Thank you. The Chair now recognizes Ranking 
Member Carson.
    Mr. Carson. Thank you, Mr. Chairman. Madam Langston, you 
mentioned that you are pleased with the Sandy Recovery 
Improvement Act advance of hazard mitigation funds. Do you feel 
that counties are sufficiently aware of this provision, and 
have the capacity to really utilize it, or should FEMA even be 
doing more to educate counties on this provision?
    Ms. Langston. Thank you. I believe there is always more 
opportunity. I spend a lot of time going around the country 
right now, talking to people about whether or not they have 
read their hazard mitigation plan, and if they have been to an 
emergency drill. I will sadly tell you that probably no more 
than 50 percent of any room that I ever talk to has fully read 
their hazard mitigation plan.
    But, in response to my being there, I hear from a lot of 
people who have gone back and read their hazard mitigation plan 
because I challenged them about it. So I think Mr. Miller and I 
have an opportunity to serve on the National Advisory Council 
together, and I think there are always those discussions that 
we have about how do we advance that. And within NACo, the 
whole focus on a resilient, thriving county is really focused 
on helping counties understand that.
    So the flexibility is good, the opportunity for education 
is never ending. Because, in general, I would say that within 
my State I know that in any given election year the turnover of 
county elected officials is somewhere between 25 and 30 
percent. So that means you are in a constant education process. 
So we always have work to do.
    Mr. Carson. Mr. Miller, in your written testimony you 
mentioned that there is a community input phase, and that 
individuals and communities are able to provide their own data 
for FEMA's consideration. I have two questions related to this, 
effectively.
    First, what is the average cost for individuals and 
communities to provide this data? And, secondly, if individuals 
and communities bring information to FEMA's attention before 
the maps are final, does FEMA pursue this information to 
determine if their maps are incorrect? Or does FEMA just 
publish the maps, knowing that they could possibly be 
incorrect?
    Mr. Miller. Well, there is a lot in there. Number one, the 
cost of challenging the maps, I think, can be significant. And 
it will vary, given the science or the engineering that needs 
to be brought forward to do that. But I can give you an average 
cost figure, and we will have the staff work that up.
    I think the other part, though, as we go through it--and 
there have been some changes in the recent law about how we pay 
for challenges to the maps that I think are important.
    More importantly, we always get into the discussion about 
whether the maps are wrong, or what data is right. Often it has 
to do with the level of preciseness. FEMA maps to a standard. 
And the standards that we set, both in the methodology we use, 
but, more importantly, the level that we map to, are vetted 
through a number of panels. Now you have the Technical Mapping 
Advisory Committee that will weigh in on those standards that 
came out of Biggert-Waters.
    There is a number of things that will happen to look at the 
standards of mapping. But our investment only maps to a level 
of preciseness. And what communities often have is greater data 
and more precise data than we have. And when they bring that to 
the table, we will consider it.
    Now, that said, if there is questions of methodology, like 
there recently was in Massachusetts, we will look at the 
methodology and sometimes, like in many places in science, 
there is disputes over if it is applicable. I think, at the 
end, we can always say we have looked at the science, we are 
going to apply it this way, we have to draw a point in time. 
But, more importantly, when we look at it, we want to look--
does it change the outcome? And if it significantly changes the 
outcome, we really do want to take it into consideration. And 
is it a one-time event, or something that we bake into our 
science and methodology?
    Mr. Carson. All right, thank you. Yield back.
    Mr. Barletta. Thank you, Ranking Member Carson. The Chair 
recognizes Ms. Edwards.
    Ms. Edwards. Thank you again, Mr. Chairman. And here, I 
thought I wasn't going to be totally interested.
    [Laughter.]
    Ms. Edwards. I just have a question. I recall--I visited 
the areas that were devastated by Katrina down in New Orleans 
and Mississippi, and then again we also, as a committee, 
visited the areas that were devastated by Sandy. And my 
recollection is that one of the things that was discussed, in 
addition to the kind of hardening structural activity that 
needed to take place, was also a discussion about the kind of 
green wetlands replacement and those sort of things that could 
go a long way to help mitigate.
    And so, I wonder if you could tell me how the sort of green 
infrastructure elements factor into improving community ratings 
and into the considerations for mitigation all together, and 
whether there might be things that we could do that would 
actually encourage some of those activities that tend to be 
less costly than some of the physical hardening structures.
    Mr. Miller. No, you are right, ma'am. Too often, our 
efforts, where we get the most focus and then discussion in 
community, is about structural mitigation, the hardening of a 
structure, the flood-proofing of a structure, or building 
levees or flood walls, or doing those things, and we lose the 
benefit and analysis of the benefit for nonstructural efforts 
that mitigate against loss. We do take those into 
consideration, and we want to continue to consider those.
    Matter of fact, I was recently at a briefing from a 
colleague from North Carolina, University of North Carolina, 
who also was with a colleague from Texas A&M. They have done a 
study and it actually says the more beneficial benefit are the 
nonstructural ecological and changes that can be made.
    On our side, one of the things that we look at for benefit 
cost is how we do the calculation. Recently, what we did was 
build in some of the benefit costs for environmental 
considerations. The harder part of that, because we don't 
always have the body of science to evaluate, was to go look for 
the studies that put a value on that, so I could really get a 
dollars and cents benefit cost analysis. But we have done that, 
and updated our benefit cost accordingly to make more projects 
reach that, especially where they take those kinds of measures. 
It is not widespread. It tends to be more in coastal areas than 
in other areas. But it is something we want to look at.
    I think, more importantly, where we are going to gain 
advantage in these others, it is something you mentioned 
earlier about how I would regard Agriculture or the other 
agencies. Under that Mitigation Framework Leadership Group, 
where we have a chance to bring people together, these are some 
of the issues we discuss, everything from unified review for 
environmental historical preservation pieces that came out of 
the Sandy Recovery Act to the kind of standards that we would 
set and policy would set. But at the bottom end of this it 
becomes about dollars and cents and can I find the monetary 
value that gives me benefit cost that allows these projects to 
move forward.
    Ms. Edwards. Thank you. I would just call attention to--I 
have a bill that deals with using green infrastructure around 
stormwater management. But I think it would be important for us 
to begin to consider ways that we can provide more substantial 
kinds of incentives for incorporating those activities in 
county and locality plans. In the stimulus package that passed 
a couple years ago, they were some of the most sought-after 
funds, but they were quite limited. And I think it would prove 
very cost-effective for some of our communities. Thank you, Mr. 
Chairman.
    Mr. Barletta. Thank you. Again, this is very good 
information, a very important hearing. So maybe if--we will do 
a third round, maybe limit it to one question, if we can.
    Ms. Langston, I was a mayor for 11 years, so I will be 
interested in your opinion. It takes public money to 
participate in CRS. But the savings go to the policyholders. 
Does that make it difficult for the local government to make 
that a priority?
    Ms. Langston. Well, I would say it was not for our 
individual county, but I do understand it could be for some, 
particularly when you look at what is required to get to the 
higher levels of rating that get a larger response.
    I think, to me, over and over again, it is about the 
engagement of the community. As a former mayor, you clearly 
understand this, that getting your constituents to understand 
that you are spending part of the money to actually help them 
put money back in their own pockets, but it doesn't always rise 
to top of mind.
    I know I have had conversations with flood plain managers 
due to some work with FEMA, and trying to help people 
understand how do these various levels of government 
communicate. So how do I, as an elected official, know what is 
going on with the flood plain manager, and how do I know that 
that is really important, now that they have figured out what 
the risk is? And then, how do I turn around and use my leverage 
and my convening power to get back to my constituents to say, 
``It is really important that we do this''?
    So, to my mind, the barriers are primarily one of 
communication between elected officials such as us, and the 
Administrators who have to put information in front of us that 
empowers us to take action.
    Mr. Barletta. Mr. Koon?
    Mr. Koon. Chairman Barletta, the--for every 500 points in 
Florida, if I could generate--if I could move every community 
up by one level on the Community Rating System, based on the 
premiums that the policyholders in Florida were paying a couple 
of years ago, before any increases, about $1.2 billion a year, 
that would be $60 million in savings across the State of 
Florida. That $60 million goes back into those policyholders' 
pockets. That is money they are going to spend in the local 
economy. That is money that is going to generate jobs, generate 
additional revenue in those communities. That is additional tax 
revenues going back to the locals and the States. That is going 
to reduce their flood insurance premiums, which could increase 
their property value, which could increase property taxes 
within the State, as well. So this is not solely a savings for 
the policyholder. That money goes back into the local economy 
and has a reverberating effect as it progresses through.
    And oftentimes, achieving that 500 points is going to cost 
far, far less. You know, we have gone through and identified 
all the different things we can do in the Community Rating 
System to save those points. And many of them are low- to no-
cost, particularly some of the outreach efforts that you can 
get credit for within a Community Rating System, simply by 
having the public aware of the hazards, or working with the 
Realtors to develop brochures. Those kinds of things, again, 
have little to no cost, and can generate tremendous savings.
    So, we have gone through a prioritized, from zero to 
expensive, where should we put our dollars. And, again, many of 
them, it is going to cost us a very small amount of money to 
generate tens of millions of dollars of savings for Floridians.
    Mr. Barletta. I agree. I know the roads in Florida are very 
good, but the roads in Pennsylvania, there are a lot of 
potholes. And sometimes elected officials hear it every day 
from their neighbors and people in the community, ``When are 
you going to fix these, the potholes?'' So it is a tough 
decision for elected officials to realize that this money has 
to go into saving the taxpayers in that community. So, it is, I 
believe, one of the factors maybe why communities aren't 
investing in mitigation.
    Ranking Member Carson?
    Mr. Carson. Well stated. Thank you, Mr. Chairman. Very 
insightful, Mr. Koon. Thank you for that.
    Mr. Berginnis, even if local communities are aware of the--
for the need of mitigating, they may not have the capacity to 
do so in many instances. Do you have any suggestions as to how 
Congress can help local communities obtain the capacity 
necessary to even implement effective mitigation strategies for 
participating in CRS?
    Mr. Berginnis. It is an excellent question, and I think it 
largely has to do with making sure the assistance mechanisms 
for communities to join and to continue to participate are 
robust enough to handle the demand that is there.
    You know, in Ohio, the CRS program, when I was working 
there at the State, was not a particularly large program. We 
had over 700 communities in the State, and I think we had less 
than 20 participating in the CRS. But, among those, we had 
communities the size of small villages--5,000 people--that 
participate in the CRS and did it successfully. And I think 
sometimes--and maybe it goes back to the communication--the 
experience that people tend to think they hear, in terms of 
applying and things like that, is a lot different than the 
reality.
    In fact, the way FEMA administers the CRS, there is 
assistance in doing applications and those kinds of things. And 
so, probably, a couple things Congress could do, again, would 
be, one, to increase the State capability to provide the 
technical assistance. Secondly, perhaps to allow CRS 
application assistance to be an eligible item under mitigation 
programs that communities could participate in. And then the 
third is making sure that the CRS program itself has enough 
resources to address any of these delays that were talked about 
in terms of once a community is excited, they want to 
participate, by golly, let's get them in the program as soon as 
possible.
    Mr. Carson. Thank you, Mr. Chairman. I yield back.
    Mr. Barletta. Thank you. I would like to thank all of you 
for your testimony today. It was incredibly insightful. And, 
again, it shines a light on how important education is, that we 
go back to many of these communities. If anyone has experienced 
as you all have, the sorrow and devastation after a flood, I 
think at that point in time we would do anything within our 
power to prevent it from happening. But it is times like right 
now, when we are not experiencing those in our communities, 
that we really need to get to work to try to stop those times 
from happening. So, again, I want to thank all of you.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    [No response.]
    Mr. Barletta. Without objection, so ordered. I would like 
to thank our witnesses again for your testimony. If no other 
Members have anything to add, this subcommittee stands 
adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
</pre></body></html>
